CITY AND COUNTY OF SAN FRANCISCO

OFFICE OF THE CITY ATTORNEY
KRISTEN A. JENSEN
Deputy City Attorney

DENNIS J. HERRERA
City Attorney

Direct Dial:
Email:

(415) 554-4615
kristenjensen@sfcityatty.gov

March 18, 2021
Scott S. Harris, Clerk of the Court
Supreme Court of the United States,
Office of the Clerk
Washington, D. C. 20543-0001
Re:

Peyman Pakdel; Sima Chegini v. City and County of San Francisco, et al.,
on Petition for Writ of Certiorari to the United States Court of Appeals for the
Ninth Circuit
(U.S. Supreme Court Docket No . 20-1212)

Dear Mr. Harris:
Respondent City and County of San Francisco, sued herein as City and County of San
Francisco, San Francisco Board of Supervisors and San Francisco Department of Public Works
(collectively "San Francisco"), requests an extension of time to oppose the Petition for Writ of
Certiorari to and including May 3, 2021 pursuant United States Supreme Court Rule 30.4. The
original deadline for filing such an opposition was April 2, 2021.
San Francisco requests additional time in order to review and respond to the amicus brief
supporting the petitioner that San Francisco has been informed will be filed by the Cato Institute,
and in order to allow for the added complexities associated with preparing and filing briefs in the
context of the COVID-19 Stay-at-Home orders in place at this time. San Francisco contacted
counsel of record for Petitioner, Jeffrey W. McCoy, on March 17, 2021. Mr. McCoy confirmed
that Petitioners consent to the extension. San Francisco has not previously requested an
extension to file its opposition brief.
The undersigned counsel is filing an Application for Admission to Practice before the
Supreme Court concurrently with or shortly after the submission of this letter, and will appear as
counsel of record for San Francisco in this matter.
Very truly yours,
DENNIS J. HERRERA
City Attorne
KRISTE . JENSEN
Deputy City Attorney
cc via email:
Jeffrey W. McCoy
Paul F. Utrecht
Thomas W. Connors
Christopher T. Tom
CITY HALL • 1 DR. CARLTON B. GOODLETT PLACE, ROOM 234 • SAN FRANCISCO, CALIFORNIA 94102-4682
RECEPTION: (415) 554-4700 • FACSIMILE: (415) 554-4757

tiECEIVEk.
n:\land\112018\171640 \01520387.docx

M6R 2 3 7021
itIE CLERK

flErviE

COURT, U.S.

